               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                 Market Intelligence

                      Audit Report




                                              August 10, 2011

Report Number MS-AR-11-005
                                                                         August 10, 2011

                                                                     Market Intelligence

                                                        Report Number MS-AR-11-005




IMPACT ON:                                  Experience Measurement (CEM) survey
U.S. Postal Service customers,              form to obtain information on customer
management’s decision-making                needs and wants for new postal
process, and revenue generation.            products and services.

WHY THE OIG DID THE AUDIT:                  WHAT MANAGEMENT SAID:
Our objective was to determine whether      Management did not specifically state
the Postal Service uses best practices      whether they concurred with the
to gather market intelligence to make       findings. Management disagreed with
informed business decisions.                our recommendation to establish a
                                            group responsible for transforming and
WHAT THE OIG FOUND:                         aligning market information.
The Postal Service could benefit from a     Management also disagreed with
stronger integrated market intelligence     updating the CEM survey form.
strategy that incorporates best practices   Management agreed with our
used by leading companies to target         recommendations to develop an
new and existing customers and make         automated mechanism to enter and
more informed business decisions.           validate consistent and complete
Additionally, management could be           customer information and to encourage
missing key marketing opportunities         MSPs to provide mail owner information
because of incomplete or inaccurate         at mail entry.
customer data. In fiscal year 2010, the
Postal Service could not accurately         AUDITORS’ COMMENT:
assign $3 billion in commercial revenue     The U.S. Postal Service Office of
to corporate customers to obtain            Inspector General (OIG) considers
additional market intelligence and          management’s comments to
adequately market to those customers.       establishing a new group and updating a
                                            survey form non-responsive but will not
WHAT THE OIG RECOMMENDED:                   pursue through the resolution process.
We recommended management appoint           The OIG considers managements
a group responsible for transforming        comments to other recommendations
and aligning market information,            responsive and management’s
develop an automated mechanism to           corrective actions should resolve the
enter and validate consistent and           issues identified in the report.
complete customer information,
encourage mail service providers (MSP)      Link to review the entire report
to provide mail owner information at mail
entry, and consider using the Customer
August 10, 2011

MEMORANDUM FOR:            PAUL E. VOGEL
                           PRESIDENT AND CHIEF MARKETING/SALES OFFICER

                           JOSEPH CORBETT
                           CHIEF FINANCIAL OFFICER AND
                           EXECUTIVE VICE PRESIDENT

                           ELLIS A. BURGOYNE
                           CHIEF INFORMATION OFFICER

                           SUSAN M. LACHANCE
                           VICE PRESIDENT CONSUMER AND INDUSTRY AFFAIRS


                               E-Signed by Darrell E. Benjamin, Jr
                                 VERIFY authenticity with e-Sign

FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue & Systems

SUBJECT:                   Audit Report – Market Intelligence
                           (Report Number MS-AR-11-005)

This report presents the results of our audit of the U.S. Postal Service’s market
intelligence efforts (Project Number 10RG012MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Service, or me at 703-248-2100.

Attachments

cc: Corporate Audit and Response Management
                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Integrated Market Intelligence Strategy Needed ............................................................. 2

   Management Actions ................................................................................................... 3

Market Intelligence Hindered By Incomplete Data .......................................................... 3

   Incomplete Customer Information ................................................................................ 3

   Management Actions ................................................................................................... 4

   Incomplete Mail Owner Data ....................................................................................... 5

   Insufficient Retail and Small Business Customer Data ................................................ 5

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objective, Scope, and Methodology .......................................................................... 11

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Other Impacts ........................................................................................... 13

Appendix C: Management’s Comments ........................................................................ 14
Market Intelligence                                                                                    MS-AR-11-005




Introduction

This report presents the results of our audit of the U.S. Postal Service’s market
intelligence efforts (Project Number 10RG012MS000). Our objective was to determine
whether the Postal Service uses best practices to gather market intelligence to make
informed business decisions. This self-initiated audit addresses strategic risk. See
Appendix A for additional information about this audit.

To enhance their understanding of their business environment, companies gather and
analyze market, customer, and competitive intelligence. 1 When acted upon, such
information improves planning, decision-making, operations, and performance — all of
which are essential to ensuring that products and services successfully meet customer
needs. Focusing on customer needs using appropriate market intelligence can help the
Postal Service increase mail volume, revenue, and profitability. Customers are more
likely to choose the Postal Service as their primary supplier of mail products and
services if the Postal Service gathers appropriate data to understand customers’ needs
and desires and offers them relevant solutions. The economic downturn and revenue
stagnation exacerbates the need for the Postal Service to effectively manage and
enhance its market intelligence.

Conclusion

The Postal Service could benefit from a stronger integrated market intelligence strategy
that incorporates best practices used by leading companies to target new and existing
customers and make more informed business decisions. Overall, the Postal Service has
not fully implemented a cohesive, structured market intelligence strategy, making it
difficult to fulfill the customized needs of senior Postal Service managers and manage
the wealth of information that can be leveraged to further inform decision-making.

Additionally, management could be missing key marketing opportunities because of
incomplete or inaccurate customer data. Although the Postal Service collects customer
transaction data and conducts opinion polls and market research, it lacks the ability to
fully integrate and transform this data into meaningful information to fully know its
customers and their needs and offer enhanced products and services to meet those
needs.

Gathering appropriate market intelligence can better position the Postal Service for
success against its competitors, highlight potential new products and services, assist
sales and marketing personnel in structuring appropriate offerings to customers, and

1
 Market intelligence is the information gathered and analyzed specifically for the purpose of accurate and confident
decision-making in determining market opportunity, market penetration strategy, and market development metrics.
Customer intelligence is information on customers gathered (their details and activities) gathered to build deeper and
more effective customer relationships and improve strategic decision making. Competitive intelligence describes the
broader discipline of researching, analyzing, and formulating data and information from the entire competitive
environment of any organization.
                                                           1
Market Intelligence                                                            MS-AR-11-005



ultimately increase revenue. Market intelligence is also a key factor for the Postal
Service in achieving its core business strategies — improving the business-to-consumer
channel; improving the customer experience; competing for the package business; and
becoming a leaner, faster, and smarter organization.

Integrated Market Intelligence Strategy Needed

The Postal Service could benefit from a stronger integrated market intelligence strategy
that incorporates a top-down approach to defining needs, gathering and analyzing data,
interpreting results, and making more informed business decisions. Although the Postal
Service conducts market research, gathers customer survey information, and collects
customer transactional data, its current approach does not provide the structure
necessary to fully transform this information into market intelligence.

Specifically, the Postal Service has not assigned overall accountability to a specific
group for collecting and analyzing information and transforming it into market
intelligence. Rather, several Postal Service groups participate in collecting and using
market information based on individual needs, including:

    Market research group.
    Business Customer Intelligence (BCI) group.
    CEM survey team.
    Online Internet and mobile channels staff.
    Revenue and Volume Forecasting team.
    Strategic planning group.
    Individual product managers.

The efforts of these various groups are not fully integrated to provide a comprehensive
view of market intelligence. For example, the BCI group has ownership and centralized
control of customer, industry, and sales employee information; and the market research
group conducts market research for the product, channel, pricing and advertising
groups. However, these groups do not have specific responsibility for market
intelligence within the Postal Service. Further, they do not take an integrated approach
to collecting and analyzing customer and market data and transforming it into valuable
intelligence to help senior management throughout the organization with corporate
strategies and decision-making. Rather, these groups gather ad-hoc data for their own
use or provide ad-hoc reporting to other functional areas within the Postal Service.

Additionally, the Postal Service has not established a method for measuring the
success of its market intelligence efforts, therefore, has no way to determine whether
the resources spent on customer and market research provide an adequate return on
investment.

Management has not established a fully integrated market intelligence strategy because
the Postal Service’s culture and business model have traditionally been driven by
operational demands with less emphasis on gathering and using market intelligence.



                                            2
Market Intelligence                                                                                MS-AR-11-005



Management has focused more on servicing existing customers with current products
and services and less on identifying and meeting new customers’ needs.

Without a fully integrated market intelligence strategy focused on providing key
customer and market insights to management, the Postal Service is at risk of limiting its
management decision-making capability. Further, it could be forgoing opportunities to
enter untapped markets, grow its business, and, ultimately, increase revenue.

Management Actions

In FY 2007, the Postal Service established the Business Insights Group (BIG), which is
an internal cross-functional team that meets regularly to discuss strategic trends and
opportunities. The group is sponsored by Strategic Business Planning, with the
objective of sharing information on the external business environment. The BIG, which
is still evolving, issues the quarterly Business Insights Report on demographic,
customer, and market trends.

Although the BIG represents a positive forum for sharing ideas, the Postal Service could
further benefit from fully integrating customer, market, and competitor data gathered by
various postal groups to provide a comprehensive view of market intelligence for the
organization.

Market Intelligence Hindered By Incomplete Data

The Postal Service’s ability to gather market intelligence is hindered due to incomplete
customer data. Specifically, we noted that integral postal systems do not contain
consistent customer profile information to accurately attribute volume and revenue and
do not always contain data necessary to determine customer industry information. In
addition, the Postal Service cannot identify all business mail owners or the services they
need or may need in the future. Because the Postal Service does not know who some
of its business customers are when mailings are presented by mail service providers
(MSP), 2 it cannot fully understand their needs or how they make money. Such market
intelligence is critical in determining which products and services to market to current
and potential customers.

Incomplete Customer Information

In FY 2010, the Postal Service generated $67.1 billion in total operating revenue,
$50.2 billion of which (75 percent) was commercial revenue. However, it could not
match customer records associated with $3 billion (6 percent) of commercial revenue in
the Corporate Business Customer Information System (CBCIS)3 to Equifax records4 to

2
  MSPs offer discounted mailing services to customers by commingling the mailings of several companies into one,
consolidated mailing to reap the benefits of discounted Postal Service workshare rates.
3
  A repository of Postal Service customer profile information, volume and revenue data, and product information.
4
  The BCI group, through a contract with Equifax Information Services, uses an Equifax file to match customer
records in CBCIS. The records include name, street number, city/Zip Code, Post Office Box™, and phone/fax
numbers. The Equifax file contains about 26 million customer information records.


                                                        3
Market Intelligence                                                                                  MS-AR-11-005



accurately assign revenue and obtain additional market intelligence on corporate
customers. This occurred because postal employees did not always enter or verify
customer information — including name and address information — correctly in the
source systems 5 that feed CBCIS. Specifically, no process is in place for the postal
employee to verify the completeness and accuracy of the customer’s name and address
when adding a new business site. For example, the customer may provide an
abbreviated name instead of a full name on a permit application. In addition, clerks
sometimes enter data into the systems without verifying the information with the
customer or the Equifax file, which contains more than 26 million customer records.
Although postal employees added 302,342 new business sites to CBCIS from the
source systems in fiscal year (FY 2010), more than 80 percent were either unmatched 6
or only partially matched with Equifax data. We consider the $3 billion in unmatched
revenue as Other Impact – data integrity. 7 See Appendix B for details of Other Impact.

In addition, the Postal Service cannot identify industry information for all businesses
listed in CBCIS. This information would categorize businesses into functional areas
such as financial services, retail, transportation, and publishing. In a separate analysis,
the Postal Service matches customer records to an Equifax file based on the standard
industrial classification code (SIC) 8 to obtain the industry type for businesses to market
the appropriate products and services to meet the needs of the specific industry. In
FY 2010, the Postal Service could not identify the SIC code for businesses that
generated commercial revenue totaling $5 billion of the total commercial revenue of
$50.2 billion (or 10 percent). These discrepancies have increased by 30 percent
annually 9 over the last 2 years. Management has implemented a manual matching
process to assist with resolving some of these discrepancies.

Management Actions

In FY 2010, the Postal Service created the Enterprise Customer Information
Management (ECIM) initiative to address how to improve the quality of data gathered by
postal systems and to identify gaps in procedures. However, the ECIM initiative has not
moved forward because of other competing priorities. During our review, the Postal
Service recognized the significance of this issue and developed a manual process in
June 2010 to research unmatched records to identify correct customer information
needed for matching these records with Equifax. Using this manual matching process,
management reduced the revenue associated with unmatched records by
$945 million. 10



5
  There are four systems that feed revenue data to CBCIS: Electronic Marketing Reporting System (EMRS), Official
Mail Accounting System (OMAS), National Meter Accounting and Tracking System (NMATS), and PostalOne!.
6
  An unmatched record occurs when the customer’s name and address in CBCIS cannot be matched to the Equifax
reference file.
7
  This represents the amount of commercial revenue in the CBCIS that is not matched to Equifax records to
accurately assign revenue and obtain additional market intelligence on corporate customers.
8
  A four-digit code that classifies a business according to industry as defined by the U.S. Department of Commerce.
9
  The 30 percent revenue growth rate is based on 2-year compound annual growth rate.
10
   We did not estimate the cost of manually researching the records.


                                                         4
Market Intelligence                                                                                       MS-AR-11-005



The Postal Service will retire CBCIS during Quarter 1, FY 2012 and replace it with the
Customer Data Mart (CDM). 11 However, even with the migration to CDM, the incorrect
name and address issues in the feeder systems will continue to occur because the
Postal Service has not focused on improving the source data. Accurate customer
information will be even more critical to building valuable market intelligence as the
Postal Service migrates from individual customer mailing permit accounts to a national
account payment system, as discussed recently by the postmaster general. In addition,
the Postal Service will continue to use the Equifax file as it does in the current
environment. As a result, unmatched records will remain an issue until management
fully implements a solution to improve the source data.

Incomplete Mail Owner Data

The Postal Service does not always know the identity of the customers who use MSP
unless the MSP provides that information at the time of mailing. 12 Therefore, when the
MSP does not identify the mail owner at the time of mailing, which they are not required
to do, the mailing is assigned to the MSP, which results in an inaccurate attribution of
the source of the revenue.

In FY 2010, $33.6 billion of the $50.2 billion in commercial revenue (67 percent)
resulted from MSP mailings. Of the total mailings by MSPs, $25.3 billion (75 percent)
was attributed to the actual mail owners. However, the remaining $8.3 billion
(25 percent) was attributed to the MSPs rather than the actual mail owners.

Insufficient Retail and Small Business Customer Data

The Postal Service collects information about residential and business customers via
CEM surveys, 13 which capture responses to open-ended questions. The Postal Service
also uses event-based surveys to capture customers’ experiences with the business
service network. 14 Management has the ability to analyze the data collected but does
not translate the information obtained from the surveys into market intelligence to
market to these customers. Such surveys are used to translate data to internal
stakeholders and target resources to improve customer experiences in specific
locations where customers rate performance the lowest. Additionally, the Postal Service
does not always collect sufficient information on customer needs and desires through
these surveys to improve its marketing capabilities.

11
   The CDM is a reporting solution that provides insight into Postal Service customers and tracks their activities
across multiple service channels. It is near real-time information about customers and their business.
12
   If the permit holder or mailing agent/preparer is using his or her own permit on mail prepared for another entity, the
mail owner field must be populated with the appropriate permit and/or ghost number. If a mailing agent/preparer
presents a mailing using the mail owner’s permit number, he or she must complete the Permit Holder and Mailing
Agent fields of the postage statement in PostalOne! This is a BY mailing, made BY the mailing agent for another
permit holder.
13
   CEM surveys are organized across common categories to capture feedback and provide a comprehensive
understanding of the end-to-end customer experience.
14
   A nationwide network dedicated to providing support to the Postal Service's largest customers for service issues,
information, and request needs. The Business Service Network is strategically positioned to have an impact on
customer satisfaction and revenue growth and retention.


                                                            5
Market Intelligence                                                         MS-AR-11-005




The more organizations understand their customers, the better they can serve them.
This includes having the technology and processes in place to analyze and understand
met and unmet customer needs. Without robust customer data and market intelligence,
the Postal Service is disadvantaged in developing solid growth platforms and generating
new business through customer satisfaction and loyalty. As the product portfolio of the
Postal Service continues to evolve into a marketing channel, the lack of
customer-centric analytics becomes an even greater competitive weakness.

Recommendations

We recommend the president and chief marketing/sales officer, in coordination with the
chief financial officer and executive vice president:

1. Appoint a group that is responsible for transforming and aligning market information
   and initiatives into new products and services which align with the corporate
   strategies.

We recommend the president and chief marketing/sales officer, in coordination with the
chief information officer:

2. Develop an automated mechanism to enter and validate consistent and complete
   customer information (including name and address) when opening a new mailing
   account.

3. Encourage mail service providers to provide mail owner information at mail entry.

We recommend the vice president, Consumer and Industry Affairs:

4. Consider using the Customer Experience Measurement survey form to include
   questions to obtain information on customer needs and wants for new postal
   products and services.




                                           6
Market Intelligence                                                           MS-AR-11-005



Management’s Comments

Management did not specifically state whether they concurred with the findings.
Management disagreed with recommendations 1 and 4. Regarding recommendation 1,
management stated that a new group is not needed, as gathering, reporting, and
analyzing market intelligence is aligned into its existing organizational structure. A
cross-functional group meets every 2 weeks to discuss relevant issues.

Regarding recommendation 4, management stated they do not believe the CEM survey
form is an appropriate vehicle for obtaining information on customer needs. This is
primarily because the form is designed to measure postal performance, is very lengthy,
and already contains open-ended questions for customers to suggest opportunities for
improvement. Further, management stated that the market research team is responsible
for determining customer response to new products and services.

Management agreed with recommendation 2 and stated that they continue to make
significant strides in improving data quality of customer information. The Postal Service
launched the Customer Registration ID (CRID), which will improve customer data
across Postal Service applications. The Postal Service deployed enhancements to
PostalOne! in June 2011 to identify parties in postage transactions. Further, deployment
of the Enterprise Payment system will require all integrating units to use the CRID for
customer identity. These efforts will be completed by January 31, 2014.

Management agreed with recommendation 3 and stated that customers participating in
Full-Service discount mailings are required to provide mail owner and preparer
information in their electronic submission. The Postal Service is working to provide
additional value to grow participation in Full-Service mail. See Appendix C for
management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments to recommendations 1 and 4 non-responsive. Regarding recommendation 1,
we continue to believe the Postal Service would benefit from creating a specific group
that is responsible for transforming and aligning market information and initiatives into
new products and services which align with the corporate strategies.

Regarding recommendation 4, we continue to believe the Postal Service does not
always collect sufficient information on customer needs and desires to improve its
marketing capabilities and could benefit from enhancing existing surveys such as CEM
or similar vehicles. The OIG considers managements comments to recommendations 2
and 3 responsive and management’s corrective actions should resolve the issues
identified in the report. We view the disagreements on recommendation 1 and 4 as
unresolved, but do not plan to pursue them through the formal audit resolution process.
We consider these recommendations closed.




                                            7
Market Intelligence                                                               MS-AR-11-005




                           Appendix A: Additional Information

Background

The Postal Service’s financial position has deteriorated over the past few years and its
target markets and the fortunes and requirements of its customers have changed.
Market intelligence is essential to understanding customers’ attitudes, needs, wants,
preferences, excitement attributes, and behaviors. It can help identify significant shifts
and trends in the marketplace, such as, social, technological, economic, and regulatory
changes. Market intelligence attempts to discern the big picture of various actions of
market players for future scenarios and draws a reasonable conclusion for immediate
action.

Components of a Market Intelligence Strategy

Studies have shown that a fully integrated market intelligence strategy, as illustrated in
Chart 1, establishes accountability to specific groups supported by senior management,
defines problems and needs, establishes metrics for measuring success, and seeks
continuous feedback and improvement. The market intelligence strategy should align
with the corporate strategies and initiatives and the information gathered should be
transformed into valuable insights.

          Chart 1. Components of a Successful Market Intelligence Strategy



                      Transform                                 Define Problems
                      Information into                            and Needs
                      Insights/
                      Continuous
                      Improvement          Establish Senior
                                         Management Support
                                         and an Accountable
                                               Group


                                            Establish Metrics
                                             for Measuring
                                                Success




   Establish Senior Management Support: The key to a successful market intelligence
    initiative is to obtain senior management support, define the formal and informal
    practices and structures, and identify the linkages needed to the rest of the
    company. Best-in-class companies fit into this category, where market intelligence is
    organized formally as a clear management function.




                                                      8
Market Intelligence                                                            MS-AR-11-005



   Establish a Specific, Accountable Group: Best-in-class companies have developed a
    structured, formal market intelligence system that concentrates intelligence in a
    distinct group empowered by senior management. Because market intelligence
    crosses functional and business lines, these organizations have established the
    mechanisms, resources, and technologies to channel intelligence through a group
    that unifies the process and is responsible for its results.

    Benchmarking studies reported that successful firms ensure that intelligence
    remains free of bias and internal organizational pressures to support an existing or
    accepted management decision. One way to ensure that the market intelligence
    group is impartial is to make it independent.

   Define Problems and Needs: The basic starting point for market intelligence is the
    continual definition of the problems or issues of importance to senior executives. Key
    intelligence topics (KITs) direct and guide the market intelligence focus and analysis.
    The primary output of this process is the ability to make sound, forward-looking,
    strategic decisions. Best-in-class companies have found that several waves of users’
    needs and requirements analysis are necessary for users and decision-makers to
    define the KITs and sharpen the information that would be useful and add
    substantial value.

   Establish Metrics for Measuring Success: Metrics used to measure the success of
    market intelligence efforts should be defined early in the planning stage and be
    continually adjusted based on insights. These metrics determine the success of the
    program in meeting business objectives as defined by the KITs. When the business
    units and senior management agree on common metrics for setting benchmarks, the
    market intelligence team can work effectively in implementing the agency’s
    strategies. As intelligence gathering identifies customer potential and market
    opportunity, the cohesiveness among groups will likely create a synchronized
    approach to product development, sales, marketing and other customer-facing
    functions and will result in an optimal execution of the overall business development
    efforts.

   Transform Information into Insights: Best-in-class companies use processes to
    convert information into insights. Continuously monitoring and transforming internal
    data into market intelligence can go a long way toward helping to reverse the
    negative financial trends the Postal Service has experienced over the past few
    years. With the steady decline in Postal Service mail volume and revenue in most
    industry segments, determining the specific causes and alternative measures to
    offset the declines could provide the Postal Service with valuable insights.

   Continuous Improvement: An important element of market intelligence is continuous
    improvement in reporting and communicating the results and insights of intelligence.
    Brief, impactful reports can be sufficient in some instances. However, augmented,
    early warning digests can notify top management of impending changes in the
    marketplace. Decision making can be enhanced through advanced presentations



                                             9
Market Intelligence                                                                                  MS-AR-11-005



     that have increased specificity, timeliness, and actionability. Frequent, almost weekly
     inputs are beneficial to the organization in providing meaningful improvement
     pointers.

A well-organized market intelligence process can increase a company’s revenue and
protect it from losing business to competitors and other alternatives. Best-in-class
organizations have a singular focus on gaining insights about market intelligence to
influence decision making. When organized, filtered, and analyzed in a cohesive and
integrated manner, market intelligence can be extremely powerful in providing insights
to management, and can lead to developing new products and services that satisfy
customer needs.

Within the Postal Service, the BCI group has ownership and centralized control of
customer, industry, and sales employee information. There are three functions within
the BCI group: Business Intelligence (BI), Sales Performance Management, and Sales
Services.

The BI group manages all of the BCI systems, which include:

    CBCIS.
    Customer Identification (CID) application.
    CDM.
    Marketing Information System (MIS).
    Customer Data Master.
    Customer Registration.
    Business Customer Gateway.

The BI group plans, develops, and implements business requirements and design
specifications for the BCI systems and coordinates with the Sales Performance team to
ensure design requirements are compatible with and connected to CustomerFirst!, 15 the
Business Connect Data Center (BCDC), 16 and the other 20 customer data source
systems that have connectivity with BCI systems. This group also acts as the liaison
between BCI and USPS.com staff for Customer Registration and is a liaison with
Business Mail Entry and Payment Technology for Full-Service, Business Customer
Gateway, and the administration applications. The BI group manages the Equifax
industry data and its integration with Postal Service internal customer data and provides
industry analytics and customer segmentation to internal functional areas.

The CBCIS is the main database, a repository of customer profile information, volume
and revenue data, and postal product information. There are four systems that feed
revenue and volume data to CBCIS: EMRS, OMAS, NMATS, and PostalOne!. MIS
brings together diverse data elements such as revenue, sales opportunities, service
15
   The primary sales management system. Sales opportunities are created, maintained, and closed within this
system.
16
   The application that enables the postal employee to capture and record customer activity and revenue information
for the following programs – Business Connect, Customer Connect, Rural Reach, Mailhandler, Submit a Lead, and
other lead-generation initiatives.


                                                        10
Market Intelligence                                                          MS-AR-11-005



issues, and product use to give a complete view of customers. It provides easy and
quick access to sales and marketing reports in a presentable format with drill-down
capabilities on important data elements.

Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service uses best practices to
gather market intelligence to make informed business decisions. To accomplish our
objective, we reviewed existing policies, procedures, and documentation related to
market intelligence. We interviewed key Postal Service officials and subject matter
experts within the BCI group and identified the mechanism the Postal Service uses to
gather information about its customers and their needs.

In addition, with the assistance of a contractor, we conducted a benchmarking and best
practices analysis to gather industry information on customer, market, and competitive
intelligence; and to contrast the Postal Service’s practices against those best-in-class
companies. We interviewed 20 companies and analyzed how leading organizations use
market intelligence to manage and grow revenue, tailor their product and service
offerings, and satisfy the needs of targeted customers.

We conducted this performance audit from February 2010 through August 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on June 2 and 23, 2011, and included
their comments where appropriate.

We assessed the reliability of CBCIS and other customer data by interviewing Postal
Service officials knowledgeable about the data. We have noted some data deficiencies
in the report.




                                           11
     Market Intelligence                                                                MS-AR-11-005



     Prior Audit Coverage

                                           Final
                            Report        Report
  Report Title              Number         Date                 Report Results
Postal Service’s Use       MS-MA-06-002   9/19/2006   The Postal Service could improve its
 of Ghost Numbers                                     collection and use of customer
                                                      information. Specifically, the Postal
                                                      Service should clarify mail acceptance
                                                      procedures and revise Postal Service
                                                      Form 3615, Mailing Permit Application
                                                      and Customer Profile, to include a
                                                      privacy notice statement that would
                                                      make public the intended use of
                                                      customer data collected. Management
                                                      agreed with our findings and
                                                      recommendations.
   The Role of             EM-AR-02-007   3/29/2002   An overall marketing plan outlining
  Marketing in the                                    marketing strategies, tactics, and
  Postal Service                                      initiatives related to the Postal Service
                                                      strategic plan had not been developed
                                                      since FY 2000. The Postal Service had
                                                      not established specific measurable
                                                      objectives for advertising messages
                                                      they wanted to convey. As a result, the
                                                      Postal Service was unable to measure
                                                      the level of change advertising
                                                      campaigns had on customer
                                                      awareness, knowledge, or attitudes.
                                                      Management agreed with our
                                                      recommendations and stated that they
                                                      would develop an integrated marketing
                                                      plan for FY 2003.




                                                 12
Market Intelligence                                                                               MS-AR-11-005



                                     Appendix B: Other Impacts


                                               Other Impacts

                Finding                           Impact Category                       Amount
           Market intelligence                     Data Integrity 17                    $3 billion
           hindered by
           incomplete or
           inaccurate data.




17
  This amount represents the amount of commercial revenue in the CBCIS that is not matched to Equifax records to
accurately assign revenue and obtain additional market intelligence on corporate customers.




                                                       13
Market Intelligence                                       MS-AR-11-005



                      Appendix C: Management’s Comments




                                     14
Market Intelligence        MS-AR-11-005




                      15
Market Intelligence        MS-AR-11-005




                      16
